In The
Supreme Court of the United States
CERTIFICATE OF COMPLIANCE

Sergei Vinkov,
Petitioner,
v.
United States District Court for the Central
District of California
Respondent

As required by Supreme Court Rule 33.1(h), I certify
that the petition for a writ of certiorari contains
7,005 words, excluding the parts of the petition that
are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on 4th August, 2021.

Sergei Vinkov, Petitioner in
Pro Per

